No. 19-251

 

 

IN THE

Supreme Court of the United States

AMERICANS FOR PROSPERITY FOUNDATION,

Petitioner,
v.

XAVIER BECERRA, IN HIS OFFICIAL CAPACITY AS
THE ATTORNEY GENERAL OF CALIFORNIA,

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
12,926 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 22, 2021.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
